March 2, 2021

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
One First Street, NE

Washington, DC 20543

Re: LeDure v. Union Pacific, No. 20-807
Dear Mr. Harris,

I am writing on behalf of the Respondent Union Pacific Railroad Company in No. 20-807
to request a 30 day extension of time pursuant to Rule 30.4 for the filing of the brief in
opposition, which is presently due on March 10. With the extension, the brief in opposition
would be due on Friday April 9, 2021.

Undersigned counsel was recently retained by Union Pacific for proceedings in this
Court, and has not previously been involved in this litigation. I do not believe I can fully analyze
the summary judgment record and the legal issues raised by the petition for certiorari on the
present schedule.

Si neerely,

EE Zoi feap

“James — Ballenger

555 Eleventh St., N.W. Suite 1000
Washington, D.C. 20004
202-701-4925
jscottballenger@gmail.com

  
 

cc: Nelson G. Wolff, counsel of record for petitioner
via email and mail
